                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00896-234




    Combined Assessment Program 

             Review of the 

    VA Maryland Health Care System 

         Baltimore, Maryland 





July 11, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CPR            cardiopulmonary resuscitation
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Maryland Health Care System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 IC             infection control
                 ICU            intensive care unit
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PU             pressure ulcer
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                              CAP Review of the VA Maryland Health Care System, Baltimore, MD



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             9

  Coordination of Care – HPC ...................................................................................                  11

  PU Prevention and Management ............................................................................                       13

  Nurse Staffing .........................................................................................................        15

  Construction Safety.................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              31

  F. Report Distribution .............................................................................................            32

  G. Endnotes ...........................................................................................................         33





VA OIG Office of Healthcare Inspections
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
April 22, 2013.

Review Results: The review covered seven activities.                    The facility’s reported
accomplishment was the Final Salute for deceased veterans.

Recommendations: We made recommendations in all seven of the following
activities:

Quality Management: Consistently report Focused Professional Practice Evaluation
results for newly hired licensed independent practitioners to the Medical Executive
Committee. Revise the local observation bed policy to include all required elements,
and gather data about observation bed use. Review each non-intensive care unit
cardiopulmonary resuscitation code episode, and ensure code reviews include
screening for clinical issues that may have contributed to code occurrences. Include all
services in the review of electronic health record quality. Ensure that the quality control
policy for scanning includes linking the scanned documents to the correct record and
that the results of non-VA purchased diagnostic tests are consistently scanned into
electronic health records. Include the results of proficiency testing in the blood usage
and review process.

Environment of Care: Ensure Environment of Care Committee minutes reflect that
actions taken in response to identified deficiencies are tracked to closure. Properly
secure oxygen tanks, and store them in a manner that distinguishes between empty and
full tanks. Secure soiled utility rooms at all times. Consistently conduct environment of
care rounds in the Annex building.

Medication Management – Controlled Substances Inspections: Amend facility policy to
include that Controlled Substances (CS) Coordinators have complete understanding of
CS policies and the inspection process and to include CS inspector orientation and
training requirements.       Amend instructions for inspecting automated dispensing
machines to include monthly CS inspector reconciliation of 1 day’s dispensing activity.
Ensure monthly CS inspection finding summaries and quarterly trend reports provided
to the facility Director include a complete list of the required inspections that were not
conducted. Inspect all required non-pharmacy areas with CS.

Coordination of Care – Hospice and Palliative Care: Ensure non-hospice and palliative
care clinical staff who provide care to patients at the end of their lives receive end-of-life
training.

Pressure Ulcer Prevention and Management: Revise facility pressure ulcer (PU) policy
to address prevention for outpatients. Consistently provide and document completion of



VA OIG Office of Healthcare Inspections                                                          i
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


recommended PU interventions and education for patients at risk for and with PUs
and/or their caregivers. Establish staff PU education requirements. Ensure electrical
medical equipment in PU patient rooms receives an electrical safety inspection.

Nurse Staffing: Comply with all elements of the staffing methodology implemented in
December 2012.

Construction Safety: Include all required members on the multidisciplinary committee
responsible for construction and renovation oversight. Conduct tuberculosis risk
assessments prior to construction project initiation. Ensure designated employees
receive ongoing construction safety training.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–30, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   PU Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
April 26, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
VA Maryland Health Care System, Baltimore, Maryland, Report No. 09-01730-14,
October 21, 2009).

During this review, we presented crime awareness briefings for 170 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and


VA OIG Office of Healthcare Inspections                                                         1
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
294 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

The Final Salute
The Final Salute is a means to show respect and gratitude for the service of deceased
veterans and to provide closure for their families and staff. When a veteran passes
away, all activity ceases on the unit, and staff and veterans line the corridors as the
deceased veteran is taken to the hearse. Following the Loch Raven campus’
2010 initiative, the Final Salute now extends to all facility campuses.




VA OIG Office of Healthcare Inspections                                                         2
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired licensed independent        Nine profiles reviewed:
       practitioners complied with selected               Of the eight FPPEs completed, results of two
       requirements.                                        were not reported to the Medical Executive
                                                            Committee.
 X     Local policy for the use of observation beds       The facility’s policy did not include that each
       complied with selected requirements.                 observation patient must have a focused goal
                                                            for the period of observation and that each
                                                            admission must have a limited severity of
                                                            illness and a condition appropriate for
                                                            observation.
 X     Data regarding appropriateness of                  The facility did not gather observation bed
       observation bed use was gathered, and                use data.
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.




VA OIG Office of Healthcare Inspections                                                                  3
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD


 NC           Areas Reviewed (continued)                                      Findings
  X    The CPR review policy and processes               Six months of CPR Committee meeting minutes
       complied with requirements for reviews of         reviewed. There was no evidence that:
       episodes of care where resuscitation was           The committee reviewed each code episode.
       attempted.                                         Code reviews included screening for clinical
                                                            issues prior to non-ICU codes that may have
                                                            contributed to the occurrence of the code.
 X     There was an EHR quality review committee,        Six months of EHR Committee meeting minutes
       and the review process complied with              reviewed:
       selected requirements.                             Not all services were included in review of
                                                            EHR quality.
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in      The quality control policy for scanning did not
       place for non-VA care documents, and the            include linking the scanned documents to the
       documents were scanned into EHRs.                   correct record.

                                                         Twenty-six EHRs of patients who had non-VA
                                                         purchased diagnostic tests reviewed:
                                                          Four test results were not scanned into the
                                                           EHRs.
 X     Use and review of blood/transfusions              Three quarters of Transfusion Utilization
       complied with selected requirements.              Committee meeting minutes reviewed:
                                                          The review process did not include the results
                                                           of proficiency testing.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPE results for newly
hired licensed independent practitioners are consistently reported to the Medical Executive
Committee.




VA OIG Office of Healthcare Inspections                                                                   4
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


2. We recommended that the local observation bed policy be revised to include all required
elements.

3. We recommended that processes be strengthened to ensure that data about observation
bed use is gathered.

4. We recommended that processes be strengthened to ensure that the CPR Committee
reviews each code episode and that code reviews include screening for clinical issues prior to
non-ICU codes that may have contributed to the occurrence of the events.

5. We recommended that processes be strengthened to ensure that the review of EHR quality
includes all services.

6. We recommended that the quality control policy for scanning includes linking the scanned
documents to the correct record.

7. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.

8. We recommended that processes be strengthened to ensure that the blood usage and
review process includes the results of proficiency testing.




VA OIG Office of Healthcare Inspections                                                                5
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

At the Baltimore campus, we inspected the emergency department, the medical ICU, the
surgical ICU, medical-surgical unit 5B, the dental clinic, the women’s health clinic, SPS, and the
Annex building. At the Loch Raven campus, we inspected the CLC/rehabilitation, CLC
hospice/long-term care, and physical medicine and rehabilitation units. At the Perry Point
campus, we inspected the locked MH unit, the CLC units, SPS, and the urgent care center.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 20 employee training and competency files (10 operating room and 10 SPS).
The table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                               Findings
  X    EOC Committee minutes reflected sufficient      Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,       reviewed:
       corrective actions taken, and tracking of        Minutes did not reflect that actions were
       corrective actions to closure.                     tracked to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
 X     Environmental safety requirements were met.     Of the 16 patient care areas inspected:
                                                        Seven did not have oxygen tanks stored in a
                                                          manner that distinguished between empty
                                                          and full tanks. Additionally, in four of those
                                                          seven areas, tanks were not properly secured
                                                          in holders.
                                                        Five had unsecured soiled utility rooms.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
 X     The facility complied with any additional       VHA and local policy reviewed:
       elements required by VHA, local policy, or       EOC rounds were not conducted in the
       other regulatory standards.                       Annex building.




VA OIG Office of Healthcare Inspections                                                                6
                                            CAP Review of the VA Maryland Health Care System, Baltimore, MD


             Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning       
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on blood borne
       pathogens.
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines      
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach      
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines      
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training             
       and competency assessment.
       Operating room employees who performed               
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional                                
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  7
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


Recommendations

9. We recommended that processes be strengthened to ensure that EOC Committee minutes
reflect that actions taken in response to identified deficiencies are tracked to closure.

10. We recommended that processes be strengthened to ensure that oxygen tanks are properly
secured and stored in a manner that distinguishes between empty and full tanks.

11. We recommended that processes be strengthened to ensure that soiled utility rooms are
secured at all times.

12. We recommended that processes be strengthened to ensure that EOC rounds are
consistently conducted in the Annex building in accordance with VHA and local policy.




VA OIG Office of Healthcare Inspections                                                                8
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
  X    Facility policy was consistent with VHA          Facility CS inspection policy reviewed. The
       requirements.                                    policy did not include:
                                                         That the CS Coordinators must have
                                                           complete understanding of CS policies and
                                                           the VHA inspection process.
                                                         Requirements for new CS inspector
                                                           orientation and/or annual training thereafter.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 X     Instructions for inspecting automated            Automated dispensing machine inspection
       dispensing machines were documented,             instructions reviewed:
       included all required elements, and were          Instructions did not include monthly CS
       followed.                                           inspector reconciliation of 1 day’s dispensing
                                                           activity, and CS inspectors did not reconcile
                                                           1 day’s dispensing from the pharmacy to
                                                           each automated unit.
 X     Monthly CS inspection findings summaries          Two monthly CS inspection findings
       and quarterly trend reports were provided to        summaries and the two corresponding
       the facility Director.                              quarterly trend reports did not include a
                                                           complete list of the required inspections that
                                                           were not conducted.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected        Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and         the past 6 months reviewed:
       inspections included all required elements.       Thirteen of 60 (22 percent) inspections of
                                                           required areas were not conducted.
                                                           Additionally, 2 areas were not inspected for
                                                           2 consecutive months.




VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


 NC           Areas Reviewed (continued)                                   Findings
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that facility policy be amended to include that CS Coordinators must
have complete understanding of CS policies and the VHA inspection process and to include
requirements for new CS inspector orientation and/or annual training thereafter.

14. We recommended that the instructions for inspecting automated dispensing machines be
amended to include monthly CS inspector reconciliation of 1 day’s dispensing activity and that
compliance be monitored.

15. We recommended that processes be strengthened to ensure that monthly CS inspection
findings summaries and quarterly trend reports provided to the facility Director include a
complete list of the required inspections that were not conducted.

16. We recommended that processes be strengthened to ensure that all required
non-pharmacy areas with CS are inspected and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               10
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

NC                   Areas Reviewed                                         Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had           There was no evidence that five non-HPC
       end-of-life training.                               staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.


VA OIG Office of Healthcare Inspections                                                                11
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


Recommendation

17. We recommended that processes be strengthened to ensure that non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                               12
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD


PU Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive PU prevention and management.5

We reviewed relevant documents, 23 EHRs of patients with PUs (10 patients with
hospital-acquired PUs, 10 patients with community-acquired PUs, and 3 patients with PUs at the
time of our onsite visit), and 10 employee training records. Additionally, we inspected three
patient rooms. The table below shows the areas reviewed for this topic. The areas marked as
NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                     Areas Reviewed                                       Findings
  X    The facility had a PU prevention policy, and it   Facility PU prevention policy reviewed:
       addressed prevention for all inpatient areas       The policy did not address prevention for
       and for outpatient care.                            outpatients.
       The facility had an inter-professional PU
       committee, and the membership included a
       certified wound care specialist.
       PU data was analyzed and reported to facility
       executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for PUs and
       for patients with PUs.
       Required activities were performed for
       patients determined to not be at risk for PUs.
 X     For patients at risk for and with PUs,             Nine of the 20 applicable EHRs did not
       interprofessional treatment plans were              contain consistent documentation that
       developed, interventions were recommended,          recommended PU interventions were
       and EHR documentation reflected that                provided.
       interventions were provided.
       If the patient’s PU was not healed at
       discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
 X     The facility defined requirements for patient     Facility PU patient and caregiver education
       and caregiver PU education, and education on      requirements reviewed:
       PU prevention and development was provided         For nine of the 20 applicable patients, EHRs
       to those at risk for and with PUs and/or their       did not contain evidence that education was
       caregivers.                                          provided to patients and/or their caregivers.




VA OIG Office of Healthcare Inspections                                                                     13
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


 NC             Areas Reviewed (continued)                                  Findings
  X    The facility defined requirements for staff PU    The facility had not developed staff PU
       education, and acute care staff received           education requirements.
       training on how to administer the PU risk
       scale, conduct the complete skin assessment,
       and accurately document findings.
 X     The facility complied with selected fire and     Three PU patient rooms inspected:
       environmental safety, infection prevention,       In all three rooms, electrical medical
       and medication safety and security                 equipment, including two alternating pressure
       requirements in PU patient rooms.                  mattresses and a compression pump, did not
                                                          have evidence of required safety inspections.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

18. We recommended that the facility PU policy be revised to address prevention for
outpatients and that compliance with the revised policy be monitored.

19. We recommended that processes be strengthened to ensure that acute care staff
consistently provide and document completion of recommended PU interventions and that
compliance be monitored.

20. We recommended that processes be strengthened to ensure that acute care staff provide
and document PU education for patients at risk for and with PUs and/or their caregivers and that
compliance be monitored.

21. We recommended that the facility establish staff PU education requirements and that
compliance be monitored.

22. We recommended that processes be strengthened to ensure that electrical medical
equipment in PU patient rooms receives an electrical safety inspection and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                               14
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and 25 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 5B, CLC unit 2 (Loch Raven), and MH unit 6A for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                      Findings
  X    The facility completed the required steps to       Expert panels were not convened until
       develop a nurse staffing methodology by the         December 21, 2012.
       deadline.
NA     The unit-based expert panels followed the
       required processes and included all required
       members.
NA     The facility expert panel followed the required
       processes and included all required members.
NA     Members of the expert panels completed the
       required training.
NA     The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
NA     The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

23. We recommended that nursing managers ensure compliance with all elements of the
staffing methodology that was implemented in December 2012.




VA OIG Office of Healthcare Inspections                                                                15
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


Construction Safety
The purpose of this review was to determine whether the facility maintained IC and safety
precautions during construction and renovation activities in accordance with applicable
standards.7

We relevant reviewed documents for the SPS closet temperature and humidity control
construction project at the Baltimore Campus. We were unable to inspect the construction site
due to the project’s completion 2 days prior to our visit. Additionally, we reviewed 20 training
records (10 contractor records and 10 employee records), and we conversed with key
employees and managers. The table below shows the areas reviewed for this topic. The areas
marked as NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                      Findings
  X    There was a multidisciplinary committee to       The facility’s multidisciplinary committee did
       oversee IC and safety precautions during          not include all required members.
       construction and renovation activities and a
       policy outlining the responsibilities of the
       committee, and the committee included all
       required members.
 X     IC, preconstruction, interim life safety, and   Risk assessments reviewed:
       contractor tuberculosis risk assessments were    The tuberculosis risk assessment was not
       conducted prior to project initiation.             conducted prior to the project’s initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       IC Committee minutes documented infection
       surveillance activities associated with the
       project(s) and any interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
 X     Contractors and designated employees            Employee and contractor training records
       received required training.                     reviewed:
                                                        Five employee records did not contain
                                                          evidence of at least 10 hours of construction
                                                          safety-related training in the past 2 years.
 NA    Dust control requirements were met.
 NA    Fire and life safety requirements were met.
 NA    Hazardous chemicals requirements were met.




VA OIG Office of Healthcare Inspections                                                                   16
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD


 NC            Areas Reviewed (continued)                                  Findings
 NA    Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

24. We recommended that the facility ensure that the multidisciplinary committee responsible
for construction and renovation oversight includes all required members.

25. We recommended that processes be strengthened to ensure that tuberculosis risk
assessments are conducted prior to construction project initiation.

26. We recommended that processes be strengthened to ensure that designated employees
receive ongoing construction safety training and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               17
                                          CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                             Appendix A

    Facility Profile (Baltimore/512) FY 2013 through March 2013a
Type of Organization                                                                 Tertiary
Complexity Level                                                                     1b
Affiliated/Non-Affiliated                                                            Affiliated
Total Medical Care Budget in Millions (FY 2012)                                      $530.2
Number of:
    Unique Patients                                                                 42,815
    Outpatient Visits                                                               315,237
    Unique Employeesb                                                               2,563
Type and Number of Operating Beds: (through
February 2013)
    Hospital                                                                        236
    CLC                                                                             263
    MH                                                                              193
Average Daily Census: (through February 2013)
    Hospital                                                                        136
    CLC                                                                             250
    MH                                                                              112
Number of Community Based Outpatient Clinics                                         6
Location(s)/Station Number(s)                                                        Cambridge/512GA
                                                                                     Glen Burnie/512GC
                                                                                     Loch Raven/512GD
                                                                                     Pocomoke City/512GE
                                                                                     Fort Howard/512GF
                                                                                     Fort Meade/512GG
VISN Number                                                                          5




a
    All data is for FY 2013 through March 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  18
                                       CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                          Appendix B

                          VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    50.8            51.4            50.8             59.0             51.0             51.1
    VISN        52.9            56.1            53.4             57.1             50.8             50.9
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   14.8            9.9              12.6            22.4             28.3             23.9
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         19
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           June 14, 2013

       From:           Director, VA Capitol Health Care Network (10N5)

       Subject:        CAP Review of the VA Maryland Health Care System,
                       Baltimore, MD

       To:             Director, Baltimore Office of Healthcare Inspections (54BA)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       1. I have reviewed the comments provided	 by the Medical Center
          Director, VA Maryland Health Care System and concur with the
          responses and actions to the recommendations outlined in the report.

       2. Should 	you require any additional information, please contact
          Jeffrey Lee, Quality Management Officer, VA Capitol Health Care
          Network, VISN 5 at 410-691-7816.




          Fernando O. Rivera, FACHE




VA OIG Office of Healthcare Inspections                                                        20
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           June 11, 2013

       From:           Director, VA Maryland Health Care System (512/00)

       Subject:        CAP Review of the VA Maryland Health Care System,
                       Baltimore, MD

       To:             Director, VA Capitol Health Care Network (10N5)

       1. I appreciate the opportunity to review and provide comments to the
          draft report of the Combined Assessment Program (CAP) review of the
          VA Maryland Health Care System (VAMHCS), Baltimore, Maryland,
          during the week of April 22–25, 2013.            The findings and
          recommendations have been review with the senior leadership at the
          VAMHCS.

       2. I concur with the recommendations in the report. T
                                                           	 he VAMHCS has
          already begun to implement improvement actions.

       3. If you have any questions, please contact my office at (410) 605-7016.




           Dennis H. Smith




VA OIG Office of Healthcare Inspections                                                        21
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure
that FPPE results for newly hired licensed independent practitioners are consistently
reported to the Medical Executive Committee.

Concur

Target date for completion: Completed May 2, 2013

Facility response: The identified providers were scheduled prior to the OIG CAP visit
to be presented at the May 2, 2013, Executive Committee of the Medical
Staff/Professional Standards Board (ECMS/PSB) as part of a review and
implementation of a FPPE tracking system. This system assures that all completed and
final FPPEs are tracked and reported to the ECMS/PSB. FPPEs are now tracked in the
Priv+ data base. A report was and can now be run to determine all providers who have
not completed the FPPE.

Recommendation 2. We recommended that the local observation bed policy be
revised to include all required elements.

Concur

Target date for completion: September 30, 2013

Facility response: The facility has identified that the current policies/SOPs need to be
reviewed and that a policy be developed with input from the primary medical provider
stakeholders. The draft policy will then be sent for concurrence and comment to all
involved parties. If any corrections are needed, they will be performed and the policy
will be published and implemented.

Recommendation 3. We recommended that processes be strengthened to ensure
that data about observation bed use is gathered.

Concur

Target date for completion: October 2013, dependent on National Utilization
Management Initiative (NUMI) upgrade release

Facility response: The new Observation Directive is scheduled to be available the
beginning of October 2013. Observation reviews in NUMI 1.1.14 will be released
around the first week of June 2013. All data will be pulled from NUMI monthly and


VA OIG Office of Healthcare Inspections                                                        22
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


reported to the Clinical Center PI Sub Councils on a quarterly basis. If the release of
NUMI upgrade is not scheduled by the national office by mid-September, an interim
database will be created and utilized for capturing and analyzing how observation beds
are used.

Recommendation 4. We recommended that processes be strengthened to ensure
that the CPR Committee reviews each code episode and that code reviews include
screening for clinical issues prior to non-ICU codes that may have contributed to the
occurrence of the events.

Concur

Target date for completion: August 2013

Facility response: Two electronic code notes (Code Blue/Rapid Response
Note – Providers and Code Blue/Rapid Response Note-Nursing) have been developed
and are undergoing revisions. Notes are currently being tested to gather feedback from
the end users. Development of an electronic Code Critique Form has begun.
Education began targeting the Critical Care and Emergency Department Nurses who
respond to all codes.        The electronic documentation is expected to improve
documentation compliance and increase capture of all code events for analysis. Charts
and critiques will be reviewed and screened for clinical issues that may have contributed
to the non ICU codes. Results will be reviewed during the CPR Subcommittee
Meetings scheduled to meet monthly.

Recommendation 5. We recommended that processes be strengthened to ensure
that the review of EHR quality includes all services.

Concur

Target date for completion: July 2013

Facility response: The calendar (schedule) is updated annually, and provided to the
clinical services. The Business Managers or representative for the Clinical Services will
continue to be reminded by the Health Information Management (HIM) Specialist prior
to the Medical Record Committee (MRC) of their need to report. The Chairperson of
MRC will also inform the Clinical Service Chief of the delay in timely reporting of Medical
Record Reviews by their respective service. It is the responsibility of the Clinical
Service to designate someone to report on Medical Record Reviews, in the absence of
the designated person. In the instance of two missed reports by a service, the Chief of
Staff will be notified.




VA OIG Office of Healthcare Inspections                                                        23
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


Recommendation 6. We recommended that the quality control policy for scanning
includes linking the scanned documents to the correct record.

Concur

Target date for completion: June 14, 2013

Facility response: The current Scanning SOP will be revised. The language will be
updated to include sampling of non-VA documents including Fee documents, to ensure
they are linked to the correct note title for each document. This process will be audited
by the supervisor on a periodic basis.

Recommendation 7. We recommended that processes be strengthened to ensure
that the results of non-VA purchased diagnostic tests are consistently scanned into
EHRs.

Concur

Target date for completion: June 2013

Facility response: The results of Non-VA purchased diagnostic tests are required to be
scanned into CPRS by HIMs within 3 business days of notification of availability by our
Fee Office. For urgent cases, the results are typically faxed to the ordering provider as
soon as possible by the treating provider. HIMS will continue conducting monthly
reviews for the next two quarters to assure compliance.

Recommendation 8. We recommended that processes be strengthened to ensure
that the blood usage and review process includes the results of proficiency testing.

Concur

Target date for completion: July 2013

Facility response: The past 12 months of Proficiency Testing (PT) results will be
presented and discussed at the next quarterly Blood Transfusion Committee meeting in
July 2013. The discussions will be documented in the committee minutes. All future PT
results will be presented and discussed at the quarterly Blood Transfusion Committee
meetings.

Recommendation 9. We recommended that processes be strengthened to ensure
that EOC Committee minutes reflect that actions taken in response to identified
deficiencies are tracked to closure.

Concur

Target date for completion: July 2013




VA OIG Office of Healthcare Inspections                                                        24
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


Facility response: A tracking system has been in place since the beginning of
FY 2013. Review of minutes for the current fiscal year will be conducted to identify
items not tracked to completion and appropriately addressed. Items not closed will be
added to agenda of next EOC meeting (June 17, 2013). Committee Chair and
Coordinator will review agenda on a monthly basis, comparing it to previous minutes to
ensure all items are carried over as “Old Business” on subsequent agendas until
resolved.

Recommendation 10. We recommended that processes be strengthened to ensure
that oxygen tanks are properly secured and stored in a manner that distinguishes
between empty and full tanks.

Concur

Target date for completion: July 2013

Facility response: Weekly surveillance will be conducted to ensure proper storage and
segregation of compressed gas tanks.

Recommendation 11. We recommended that processes be strengthened to ensure
that soiled utility rooms are secured at all times.

Concur

Target date for completion: July 2013

Facility response: As many of the existing soiled utility rooms on the nursing units
were never designed and constructed for lockable doors and door hardware, particularly
at the Baltimore Medical Center, a Non-Recurring Maintenance (NRM) Construction
project is being developed for funding and award of a construction contract. This
project will replace existing door and door hardware where needed to provide adequate
locking mechanisms on soiled utility rooms. In the interim, these soiled utility rooms will
be added to EOC rounds, as well as PI tracer reviews. PI will provide education
regarding the importance of being within a visible distance of the doors to ensure no
unauthorized access to the soiled utility rooms to nurses who work in the area where
these soiled utility rooms exist.

Recommendation 12. We recommended that processes be strengthened to ensure
that EOC rounds are consistently conducted in the Annex building in accordance with
VHA and local policy.

Concur

Target date for completion: July 2013

Facility response: The VAMHCS EOC Coordinator has taken appropriate action to add
the clinical areas of the Annex building to the schedule to be completed twice per fiscal
year in accordance with the VA regulations regarding EOC rounds. All areas of the


VA OIG Office of Healthcare Inspections                                                        25
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


VAMHCS will now be rounded twice per year per 2007 guidance from the DUSHOM.
The first is to occur by July 30, 2013.

Recommendation 13. We recommended that facility policy be amended to include
that CS Coordinators must have complete understanding of CS policies and the VHA
inspection process and to include requirements for new CS inspector orientation and/or
annual training thereafter.

Concur

Target date for completion: August, 2013

Facility response: The current policy has been amended and will be sent out for
concurrence by June 14, 2013 and once approved, it will be published.

Recommendation 14. We recommended that the instructions for inspecting
automated dispensing machines be amended to include monthly CS inspector
reconciliation of 1 day’s dispensing activity and that compliance be monitored.

Concur

Target date for completion: September 2013

Facility response: For long term compliance the facility is purchasing Omnicell
systems that will allow inspectors, pharmacy, and other users to reconcile dispensing to
each unit. The purchase has been approved by Contracting. Once the system is
installed and in place, VAMHCS will be compliant with this requirement. As an interim
measure the facility will select a random day each month and reconcile the dispensing
activity for a randomly selected zone. This process will be performed until the Omnicell
arrives.

Recommendation 15. We recommended that processes be strengthened to ensure
that monthly CS inspection findings summaries and quarterly trend reports provided to
the facility Director include a complete list of the required inspections that were not
conducted.

Concur

Target date for completion: Completed June 11, 2013

Facility response: The monthly and quarterly reports have been updated to include
improved monitoring of missed zones and discrepancies. Reports are forwarded to the
Medical Center Director through Executive Committee of Administrative Services
(ECAS) and are discussed and documented in the committee minutes.




VA OIG Office of Healthcare Inspections                                                        26
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


Recommendation 16. We recommended that processes be strengthened to ensure
that all required non-pharmacy areas with CS are inspected and that compliance be
monitored.

Concur

Target date for completion: October 2013

Facility response: At the beginning of the Fiscal Year, an incentive program will begin
for all inspectors who complete 95% of their assigned inspections. Compliance will be
monitored to identify all inspectors who achieve this goal. Incentives have proved
effective as a VA best practice nationally and will alleviate the issues with missed zones
due to inspector non-compliance and scheduling conflicts. The program has been
developed and is awaiting Medical Center Director approval.

Recommendation 17. We recommended that processes be strengthened to ensure
that non-HPC clinical staff who provide care to patients at the end of their lives receive
end-of-life training.

Concur

Target date for completion: March 2014

Facility response: The facility will continue including the topic of Palliative Care as part
of orientation for new employees. To ensure that all employees have a basic
understanding of palliative care the decision has been made to require staff to take the
online education module, “Leading the Way – VA Palliative Care” in the Talent
Management System (TMS). A memorandum from the Medical Center Director will be
distributed to the target employees by July 30, 2013 to promote completion of this
course.

Recommendation 18. We recommended that the facility PU policy be revised to
address prevention for outpatients and that compliance with the revised policy be
monitored.

Concur

Target date for completion: December 2013

Facility response: The facility will revise the PU policy to include prevention of
pressure ulcer for all outpatients according to VHA HANDBOOK 1180.02. Outpatient
clinics will identify the process for pressure ulcer risk screening based on the population
served. Once developed, the Certified Wound Care Nurse (CWCN) will provide
education regarding use and process at staff meetings. Outpatient clinics will monitor
screenings quarterly, and report results to Interdisciplinary Pressure Ulcer Committee.




VA OIG Office of Healthcare Inspections                                                        27
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


Recommendation 19. We recommended that processes be strengthened to ensure
that acute care staff consistently provide and document completion of recommended
PU interventions and that compliance be monitored.

Concur

Target date for completion: December 2013

Facility response: The appropriate templates will be updated to include completion of
any recommended interventions in CPRS (July 2013). The Wound Liaison/Wound
Ostomy Care Nurse (WOCN) will provide education regarding use and process at staff
meetings. Wound Liaison will perform walking rounds weekly for Veterans at risk for
pressure ulcers to ensure pressure ulcer interventions are in place and documented
according to the plan of care (September 2013). Wound Liaisons will provide findings to
WOCN, who will report to the Interdisciplinary Pressure Ulcer Committee.

Recommendation 20. We recommended that processes be strengthened to ensure
that acute care staff provide and document PU education for patients at risk for and with
PUs and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: December 2013

Facility response: The VAMHCS facility created nursing documentation template for
patient/significant other education regarding wound/pressure ulcer etiology, treatments
and prevention (completed, April 2013.) Wound Liaison/WOCN will provide education
on the importance of completing this aspect of the template at staff meetings in
August 2013. The Wound Liaisons will audit 10 charts per month of patients on their
respective units with pressure ulcers on admission and/or discharge for evidence of
education regarding pressure ulcer etiology, prevention or treatment for three months.
Wound Liaisons will report findings to WOCN who will report to the Interdisciplinary
Pressure Ulcer Committee quarterly.

Recommendation 21. We recommended that the facility establish staff PU education
requirements and that compliance be monitored.

Concur

Target date for completion: December 2013

Facility response: Nursing staff will have mandatory staff education annually on
pressure ulcer prevention and treatment according to VAMHCS policy.          This
requirement will be added to the VAMHCS Policy Memorandum 512-118-015. The
Nurse Manager will monitor as part of the employees’ annual evaluation.




VA OIG Office of Healthcare Inspections                                                        28
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


Recommendation 22. We recommended that processes be strengthened to ensure
that electrical medical equipment in PU patient rooms receives an electrical safety
inspection and that compliance be monitored.

Concur

Target date for completion: June 2013

Facility response: Biomedical Engineering will perform initial incoming inspection on
electrical medical equipment in patient rooms. Compliance will be monitored by
tracking work order requests for incoming inspections. For medical equipment that falls
under the equipment management program, follow up inspections will be performed
based on the manufacturer’s recommendation and historical data. As this process is
ongoing the target date for implementation is June 2013.

Recommendation 23. We recommended that nursing managers ensure compliance
with all elements of the staffing methodology that was implemented in December 2012.

Concur

Target date for completion: August 30, 2013

Facility response: The VAMHCS is compliant with the VHA directive 2010-034 for
FY 2012. The expert panels are scheduled to conduct a reassessment during the
months of June and July for FY 2013. The facility panel will be scheduled by
August, 30, 2013. The monthly nurse leadership meetings are utilized to remind all
nurse managers that the expert panels are to be reassessed, and a deadline date of
July 30, 2013 has been provided to the Nurse leaders.

Recommendation 24. We recommended that the facility ensure that the
multidisciplinary committee responsible for construction and renovation oversight
includes all required members.

Concur

Target date for completion: July 2013

Facility response: A new policy, which dictates the composition of the committee, is in
the review/concurrence process. The VAMHCS anticipates the policy will be published
after a Collective Bargaining review (yet to be scheduled) is completed.

Recommendation 25. We recommended that processes be strengthened to ensure
that tuberculosis risk assessments are conducted prior to construction project initiation.

Concur

Target date for completion: July 2013




VA OIG Office of Healthcare Inspections                                                        29
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD


Facility response: A new policy, which identifies the requirement for tuberculosis risk
assessments, is in the review/concurrence process. The VAMHCS anticipates the
policy will be published after a Collective Bargaining review (yet to be scheduled) is
completed. The Infection Control Risk Assessment (ICRA) form has been modified to
include the tuberculosis assessments as part of the ICRA.

Recommendation 26. We recommended that processes be strengthened to ensure
that designated employees receive ongoing construction safety training and that
compliance be monitored.
Concur

Target date for completion: July 2013

Facility response: A new policy, which dictates approved training courses, is in the
review/concurrence process. The VAMHCS anticipates the policy will be published
after a Collective Bargaining review (yet to be scheduled) is completed.




VA OIG Office of Healthcare Inspections                                                        30
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sonia Whig, MS, LDN, Team Leader
Contributors            Gail Bozzelli, RN
                        Donald Braman, RN
                        Margie Chapin, RT (R), JD
                        Jennifer Christensen, DPM
                        David Griffith, BSN, RN
                        Terri Julian, PhD
                        Nelson Miranda, LCSW
                        Molly Morgan
                        Melanie Oppat, MEd, LDN
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        31
                                   CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Capitol Health Care Network (10N5)
Director, VA Maryland Health Care System (512/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Benjamin L. Cardin, Barbara A. Mikulski
U.S. House of Representatives: Elijah Cummings, Andy Harris, Dutch Ruppersberger,
 John P. Sarbanes


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        32
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Materiel Management, the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                         33
                                           CAP Review of the VA Maryland Health Care System, Baltimore, MD



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        34
